<html>
<title> - THE COMMERCIAL SPACE LAUNCH INDUSTRY: SMALL SATELLITE OPPORTUNITIES AND CHALLENGES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                 THE COMMERCIAL SPACE LAUNCH INDUSTRY:
              SMALL SATELLITE OPPORTUNITIES AND CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 19, 2016

                               __________

                           Serial No. 114-73

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
       
                            ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-870 PDF             WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
      
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEPHEN KNIGHT, California           MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DRAIN LAHOOD, Illinois
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama                   ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   EDDIE BERNICE JOHNSON, Texas
STEVE KNIGHT, California
LAMAR S. SMITH, Texas

                            C O N T E N T S

                             April 19, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    20
    Written Statement............................................    23

Statement by Representative Marc A. Veasey, Subcommittee on 
  Space, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    25
    Written Statement............................................    27

                               Witnesses:

Mr. Elliot Pulham, Chief Executive Officer, Space Foundation
    Oral Statement...............................................    32
    Written Statement............................................    35

Mr. Eric Stallmer, President, Commercial Spaceflight Federation 
  (CSF)
    Oral Statement...............................................    42
    Written Statement............................................    44

Discussion.......................................................    55

             Appendix I: Answers to Post-Hearing Questions

Mr. Elliot Pulham, Chief Executive Officer, Space Foundation.....    72

Mr. Eric Stallmer, President, Commercial Spaceflight Federation 
  (CSF)..........................................................    91

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   122


                 THE COMMERCIAL SPACE LAUNCH INDUSTRY:



              SMALL SATELLITE OPPORTUNITIES AND CHALLENGES

                              ----------                              


                        TUESDAY, APRIL 19, 2016

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






    Chairman Babin. The Subcommittee on Space will come to 
order. Thank you for being here.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing entitled ``The Commercial Space 
Launch Industry: Small Satellite Opportunities and 
Challenges.''
    I recognize myself for five minutes for an opening 
statement.
    The commercial space industry truly is an amazing industry. 
It generates hundreds of billions of dollars of economic 
activity, serving both the private and public sectors, all 
while pushing the boundaries of innovation and fostering the 
United States as the global leader in space.
    Part of this innovation is a new space spin-in phenomenon. 
Computer, data analytics, and IT technologies having their 
origin in our space program but more recently developed outside 
of the space sector are being reapplied for space-specific 
purposes.
    Significant research and development investments are also 
being made in the United States to create and manufacture new 
types of small satellite technologies and application. One of 
the largest barriers to that small satellite companies--that 
they face is the cost of launch. Launch often accounts for a 
significant portion of a small satellite's overall mission 
cost.
    Recent government incentives for launch vehicle development 
may allow small satellite operators greater access to space. 
New launch vehicle test flights present great opportunities for 
small satellite operators to launch secondary payloads if the 
companies are willing to accept the primary payload schedule, 
mission profile, and mission risk.
    The development of a small satellite industry is also 
attracting investment for a new class of launch services to 
serve the specific needs and requirements of smaller satellites 
and associated on-orbit constellations. A number of American 
companies in various stages of development plan on offering 
dedicated launch services to the small satellite industry in 
the next few years. These companies hope to fulfill the unmet 
demand of the small satellite market. They also promise to 
provide more flexible launch services such as delivery to 
unique orbits and rapid replenishment.
    There is a lot of change going on in the small satellite 
and launch services industry. Winston Churchill once said, 
``There is nothing wrong with change if it is in the right 
direction.'' From my point of view, the investment and 
innovation occurring in the small satellite and launch industry 
is good for America, and it is an important step in the right 
direction.
    But change often presents both challenges and 
opportunities. Companies are seeking to supply the demand for 
greater small satellite launch capability in many unique and 
innovative ways. Some solutions carry more risk than others. 
Some solutions are easier to implement than others. Some 
solutions require government action and some do not.
    Today's hearing gives us the chance to explore these 
challenges and opportunities. One policy challenge is excess 
intercontinental ballistic missile motors. It is longstanding 
national policy that excess U.S. ICBMs or their components 
should not be used for commercial launch services. This policy 
is established in the 1998 Commercial Space Act and reiterated 
in the 2013 National Space Transportation Policy, which states: 
``Excess U.S. ballistic missiles or their components shall 
either be retained for government use or destroyed,'' and that 
departments and agencies may use them on a case-by-case basis.
    But should this policy be changed to allow greater use of 
excess ICBM motors for commercial launch services? This isn't a 
black-and-white issue, and the policy outcomes associated with 
either keeping or modifying existing policy will create winners 
and losers.
    And those in favor argue that many U.S. small satellites 
have launched on Russian DNEPR vehicles derived from Russian 
ICBMs and that, by modifying existing U.S. policy, U.S. launch 
services could compete with Russia and bring this business back 
to America.
    Those in favor also argue that there is a cost to the 
taxpayer associated with storing excess ICBMs. By allowing the 
U.S. commercial launch industry to use excess ICBMs, you not 
only lower the tax burden but also create potential revenue 
derived from the sale of these motors.
    Those that oppose the policy change raise legitimate 
concerns that allowing excess ICBMs to be used for commercial 
launch purposes could distort the market in the United States, 
undermine future investment, and delay innovations that are on 
the horizon.
    Access to foreign launch services is also a policy 
challenge for the U.S. small satellite industry. And I've heard 
from a number of companies that build and operate small 
satellites that there isn't enough capacity in the market at a 
price they can afford to meet their needs.
    India has stepped in and offered to fill, in part, this 
demand and is launching smaller satellites on their PSLV 
vehicle. The Administration has provided a number of export 
waivers on a case-by-case basis for these launches, in part 
because India is becoming a strategic ally in South Asia. 
Unfortunately, the Administration seems to lack a clear long-
term policy to guide access to PSLV launches. What should U.S. 
policy be with regard to Indian and other foreign launch 
vehicles?
    Another factor that may impact the small satellite market 
is reusability. We all watched with great awe the 
accomplishments of Blue Origin and SpaceX when they launched 
and recovered their first stages. ULA and Ariane are now 
planning partially reusable systems as well. Will partial 
reusability of launch systems lower launch costs significantly 
and will it be the panacea for small satellite operators? Will 
they be able to overcome many of the past issues with 
reusability such as refurbishment and maintenance costs? Only 
time will tell, but I'm excited about these recent 
transformative developments.
    Finally, are there any artificial government barriers to 
expanding opportunities for secondary payloads, hosted 
payloads, and rideshares? Is there anything that can be done to 
assist in the aggregation of small satellites on a--on larger 
vehicles so as to benefit from economies of scale? Are there 
technologies or policies that could allow for greater 
utilization?
    There is a great deal of promise in the future of space, 
but if we fail to provide long-term solutions to the issues 
that our nation faces, we may well lose our leadership in 
space. China stands ever-ready to fill that leadership void at 
a national level. Russia and Europe will gladly fill that role 
from a commercial perspective once again.
    We must provide a competitive legal, policy, and economic 
environment or other nations will happily step up. This would 
lead to an eroded industrial base, decreased national 
capabilities, declining international influence, and the loss 
of a skilled workforce. I, for one, will not allow that to 
happen on my watch.
    I look forward to learning more about these critical issues 
facing our commercial space industry and finding common ground 
and responsible solutions that meet the needs of our nation, 
grow our economy, and maintain our leadership in space.
    [The prepared statement of Chairman Babin follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairman Babin. And now, I'd like to recognize the Ranking 
Member, the gentleman from Texas, for an opening statement.
    Mr. Veasey. Thank you, Mr. Chairman.
    And good morning, and welcome to our distinguished panel of 
witnesses.
    I want to thank Chairman Babin, also a fellow Texan, for 
calling this hearing.
    Before I begin, though, I would like to note that we 
received the final witness testimony statements and the hearing 
charter less than 24 hours ago, and this has made it very tough 
on member preparation and staff preparation likewise. And in 
the future, I hope that we can receive the testimony and 
charter in a more timely manner. That would be very, very 
helpful.
    Now, again, as a Texas Member, ensuring the continued 
growth of the space industry and addressing the challenges 
within emerging sectors such as the commercial launch industry 
remain incredibly important to me and my fellow committee 
members.
    Thanks to the Johnson Space Center in Houston, Texas. They 
have long been a leader on space issues. Now, as we move 
forward with commercial spaceflight, Texas is positioned to be 
a leader yet again with a growing presence of commercial tests 
and launch sites in Texas. Companies like Blue Origin and 
SpaceX are laying the groundwork for innovation and helping to 
inspire the next generation of scientists and engineers with 
their latest test sites in West and South Texas. The work of 
the private space industry is helping change the landscape for 
satellite launches by greatly driving down the cost of 
delivering a payload safely to space.
    Small satellite, also known as smallsats are contributing 
to the emergence of new startup companies that aim to provide 
rapid turnaround in services and technology advancement to 
improve and expand services at a lower cost, especially in the 
area of Earth observation and data provision.
    U.S. leadership in this emerging industry has the potential 
to both create jobs and economic growth for the nation and to 
serve as an important source of U.S. innovation in an 
increasingly competitve and changing global marketplace. 
Additionally, universities and government agencies are 
exploring the increased use of smallsats and for research, 
education and training, technology development, and conduct of 
government operations.
    One of the major challenges that smallsats do face is 
developing and building the spacecraft--is finding a way to put 
the spacecraft in space and to do so in an affordable and 
reliable manner. Today, options for placing a small payload in 
space include the following: that is, using dedicated small 
launchers, ridesharing as a secondary payload on a large 
primarily conducted for another purpose, being a hosted payload 
on a commercial satellite, and being ejected from a commercial 
dispenser mounted on the International Space Station.
    Unfortunately, smallsat users and operators are often 
constrained in their choice of launch options due to individual 
requirements, available budgets, and the unique characteristics 
of each option. As a result, smallsat users and operators must 
make tradeoffs between factors such as affordability, schedule, 
risk, and orbital placement. For example, since the primary 
payload customers dictates launch conditions, users and 
operators of small satellites launched as a secondary payload 
have no control on either the launch schedule or the 
destination orbit of the launch vehicle. And while the 
secondary payload customers must accommodate any delay by the 
primary payload, they benefit from the lower launch cost.
    On the other hand, smallsat customers who place a premium 
on when the launch must occur and to what orbit the satellite 
needs to be placed may opt to launch using a dedicated launch 
vehicle despite that option's higher cost.
    So it is not surprising that a number of providers are 
seizing on this opportunity to offer additional launch options 
to meet existing and projected demand by smallsats. Two recent 
proposals have been made. The first is to allow the Air Force 
to make its excess intercontinental ballistic motors available 
for purchase and later in use in commercial launches. The 
second is to facilitate U.S. commercial satellite operator 
access to Indian launchers.
    I hope that we can have an objective discussion with the 
panel on the pros and cons of these proposals and identify 
possible unintended consequences as well. Such a discussion is 
critical because both of these proposals are likely to require 
changes in statute and policy, which this committee would have 
jurisdiction over.
    However, we also need to hear from the relevant government 
agencies, and I hope Mr. Chairman that we will have the 
opportunity for a future hearing at which we can get the 
perspectives of affected federal agencies.
    In closing, it is clear that we need a thoughtful 
discussion of these complex issues, one that will enable the 
United States to capitalize on the innovation and job creation 
that is sure to come from designing and building and using this 
very exciting technology.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    [The prepared statement of Mr. Veasey follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
        
    Chairman Babin. Thank you, Mr. Veasey. I appreciate it.
    I would like to thank the witnesses for being here today, 
and I'd like to introduce them. As you may know, last week was 
the 32nd Space Symposium in Colorado. Both of our witnesses 
have been extremely busy preparing for and attending the 
symposium, and so I very much appreciate that they were able to 
pull together their testimonies and attend this hearing on such 
a short notice and short turnaround.
    The committee received a number of letters from 
stakeholders, and I ask unanimous consent to include them in 
the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. And let me introduce our witnesses.
    First is Mr. Elliott Pulham, our first witness today. He's 
the Chief Executive Officer of the Space Foundation since 2001. 
In his role at the Space Foundation, Mr. Pulham leads a premier 
team of space and education professionals, providing services 
to educators and students, government officials, news media, 
and the space industry around the world.
    Before joining the Space Foundation, Mr. Pulham was Senior 
Manager of Public Relations, Employee Communication, and 
Advertising for all space programs of Boeing, serving as 
spokesperson at the Kennedy Space Center for the Magellan, 
Galileo, and Ulysses interplanetary missions, among others. Mr. 
Pulham has a degree in journalism and mass communication from 
the University of Hawaii Manoa.
    Second, Mr. Eric Stallmer, and we appreciate Mr. Stallmer 
being here today as well. He's President of the Commercial 
Spaceflight Federation since 2014. In his role, Mr. Stallmer 
constantly promotes the industry and member companies through 
his outreach of high-ranking officials and high-profile media 
outlets. He also promotes the mission of CSF through 
participation in multiple industry conferences throughout the 
year.
    Mr. Stallmer, has a master of arts degree in public 
administration from George Mason University and a bachelor of 
arts degree in political science and history from Mount St. 
Mary College.
    I now recognize Mr. Pulham for five minutes to present his 
testimony.

                TESTIMONY OF MR. ELLIOT PULHAM,

           CHIEF EXECUTIVE OFFICER, SPACE FOUNDATION

    Mr. Pulham. Thank you, Mr. Chairman, and thank you, Members 
of the Committee. It's a pleasure to be here today, and I thank 
you for the opportunity to testify on matters having to do with 
the space launch and satellite markets.
    In addition to my testimony, I'd like to enter into the 
record a brief report on these markets, which is gleaned from 
our online research source, ``The Space Report,'' which has 
been included as an addendum to my remarks.
    I'm here today to provide perspective and data on behalf of 
the foundation. We're a 501(c)(3) nonprofit, nongovernmental 
organization, and we strive to be an entity that all 
stakeholders in the space policy realm can trust to provide 
fair, balanced, and well-researched information.
    The easiest way to characterize the current international 
launch market is that it is highly competitive, abundantly 
supplied with a variety of launch systems, and with new systems 
and suppliers entering or attempting to enter the market 
virtually every day. In 2015, there were 39 different major 
launch vehicle models in operation, 39, and they accounted for 
86 launches around the world. In simple math, this is less than 
three launches per vehicle, which is not commercially 
sustainable, and it means that some systems enjoy a backlog of 
orders while many, many launches depend upon government 
involvement of one kind or another.
    Regarding the notion of permitting or prohibiting access to 
foreign launch services, our experience is it's very hard to 
characterize levels of government support for many competing 
systems because of the different cultures, economies, types of 
government, perceived societal roles, and so forth. But it is 
safe to say that there are very few launch systems in the world 
that have not has some kind of government support at one time 
or another, although I think this is certainly beginning to 
change with the advance in small commercial launch vehicles.
    The issues I think before us have to do with fairness to 
the satellite manufacturers of the United States and our 
allies, reasonable access to launch options, and attention to 
security concerns that do not constitute a broad or overly 
restrictive reach by regulators.
    The impact of ITAR restrictions over the past 20 years has 
mostly been a body of unintentional consequences that have 
injured U.S. satellite manufacturers while promoting the 
development of so-called ITAR-free and no-U.S.-content 
satellites in Europe and Asia. Many of the satellite orders, 
once routinely filled by U.S. companies, are now filled by 
others. Even good friends and allies who really, really would 
like to buy American find themselves frustrated still. 
Significant changes to ITAR have been made, but implementation 
of the changes within the government has been slow.
    Recently, there's been some discussion about allowing U.S.-
built satellites to fly on boosters such as the Indian PSLV. 
This kind of discussion has taken place before in the case of 
allowing U.S.-built satellites to fly on Chinese boosters, 
which was permitted but came to an end in the late 1990s with 
the failure of a Long March booster and the subsequent accident 
investigation, which resulted in the ITAR changes mentioned. 
Since then, no U.S. satellites have flown on Chinese boosters.
    I think the concern about using Indian boosters is not so 
much the transfer of sensitive technology to a nation that's a 
fellow democracy, but rather whether the Indian launches are 
subsidized by the government to a degree that other market 
actors would be priced out of the market. I would point to the 
chart that in my testimony that shows the launch rates for the 
past decade. India has not managed to launch more than a half a 
dozen times the year. They've also had some reliability 
challenges with their systems, and I do not see them as a clear 
and present danger to U.S. launchers quite yet.
    Within the boom in small satellites, there is also a boom 
in the development of launchers dedicated to the small side--
CubeSat, nanosat, whatever you want to call them--market. The 
boom has numeric interest, but its market impact remains to be 
seen. The total mass of nanosatellites launched in 2015 only 
equals one percent of the total mass launched. If it were not 
for the unique orbits required for various small satellite 
missions, all 120 of the nanosats launched in 2015 with a 
combined mass of less than 500 kilograms could have been 
orbited on a single Delta II launch vehicle.
    As regards to these new constellations that we're seeing, 
we've seen a similar story before when forecasts for thousands 
of new small satellites were envisioned for systems like 
Teledesic, which I had some experience with. These led to 
wildly ambitious launch forecasts in the '90s, which did not 
materialize and have had a negative impact on national security 
space ever since.
    Then, as now, there was enthusiasm for the spin-in of 
technology and management architectures from the non-space 
world. But space was and is hard. The ability to succeed in 
cellular communication did not translate into success in the 
satellite marketplace in the '90s, nor does acumen in 
information technology necessarily equate to satellite success 
today. Many of the investments being made in small satellites 
are driven simply by the smaller costs of the spacecraft. Small 
cost and big capabilities seldom arrive hand-in-hand.
    The other major policy considerations that accompany this 
proliferation of small satellites has to do with the necessity 
of getting our arms around a space traffic management regime 
which will ensure continued long-term access to space for 
operators of all sizes. And I'm sure you've all heard the three 
C's. Space is congested, contested, and competitive, and it's 
only getting more so.
    I don't want you to think that I'm not excited about this 
emerging sector or that it's necessarily doomed to the fate of 
the Little LEO phenomena of the '90s, but rather I'm saying we 
need to be cautiously optimistic and not overly bullish. At a 
recent House Armed Services Committee, General Hyten said it 
was incredibly difficult for the government to accurately 
forecast launch industry trends and say with certainty where 
the industry will be several years from now, and I would say 
it's difficult for anyone to do that.
    Technology improvements have resulted in better components, 
less expensive technology. I'm not saying it's not as good as 
the other satellite stuff that's out there. And the emerging 
players do offer technology advances such as rapid iteration, 
constantly increasing communication speed, bandwidth, et 
cetera. These capabilities may in many cases be complementary 
with legacy companies, products, and services. Pentagon's 
recent outreach to Silicon Valley speaks to the recognition 
that there are new things to be learned.
    Partially or fully reusable launch vehicles have been the 
Holy Grail in the space sector for ages. It is delightful to 
see progress being made towards reusability.
    And then wrapping up because I've abused my time, I just 
want to finally address an issue that is larger than the focus 
of today's hearing, which is the future of the country in space 
and how we ensure U.S. leadership in space. Last month, the 
Space Foundation, along with 13 other space-related 
associations, including Mr. Stallmer's, released a paper, 
``Ensuring U.S. Leadership in Space.'' The document is intended 
to be a nonpolitical statement from the space industry to 
inform candidates for office and educate them of how important 
and essential space efforts, technologies, and capabilities are 
for all Americans. I encourage you to read this document and 
ask that you insert it in the record of this hearing.
    Again, thank you for allowing me to go a little bit over my 
time, and I look over to your questions.
    [The prepared statement of Mr. Pulham follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Babin. Yes, sir. Thank you, Mr. Pulham. I 
appreciate that.
    And I would now like to recognize Mr. Stallmer for five 
minutes for his testimony presentation.

           TESTIMONY OF MR. ERIC STALLMER, PRESIDENT,

            COMMERCIAL SPACEFLIGHT FEDERATION (CSF)

    Mr. Stallmer. Thank you, Chairman Babin, and Members of the 
Subcommittee, and thank you for holding this hearing today.
    The Commercial Spaceflight Federation is the leading 
national trade association for the commercial spaceflight 
industry. Our members are responsible for the creation of 
thousands of high-tech jobs driven by billions of dollars of 
investment. Through the promotion of innovation, CSF is guiding 
the expansion of Earth's economic sphere, bolstering U.S. 
leadership in aerospace, and inspiring America's next 
generation of engineers and explorers.
    As the commercial space industry experiences rapid growth 
in demand, the U.S. launch industry is responding. Presently, 
the U.S. launch services market is dealing with demand in three 
ways. First, companies are investing a substantial--substantial 
capital in the development of a new class of small launch 
vehicle systems, including Virgin Galactic, Firefly, Vulcan, 
and Rocket Lab; second, through bundled satellite deals on 
dedicated medium to intermediate lift rockets with SpaceX, and 
soon, Blue Origin and Sierra Nevada's Dream Chaser; and 
finally, through secondary payloads. Companies with small 
satellites piggyback on larger satellite launches. PlanetLabs, 
with its large constellation of small remote sensing 
satellites, has flown to orbit as a secondary customer on a 
number of flights already.
    While small satellite customers benefit from being a 
secondary payload through fractional pricing, we acknowledge 
that the status as a secondary payload does result in tradeoffs 
for the small satellite customer. The best solution for access 
to space for small satellite companies would be when they're 
dedicated U.S. small launch providers coupled with options for 
bundled launch services on larger rockets and more 
opportunities to ride to space as secondary payloads.
    With the growth in demand for domestic space launch, the 
need in the near term for the state-of-the-art launch 
facilities is really necessary. There are numerous spaceports 
that are well-positioned to support existing and new launch 
vehicles that are coming online. The more U.S. launch vehicles 
available will provide more opportunities to access space from 
our many spaceports.
    And even as the ink is still wet on last year's Space Act, 
Congress is now facing efforts to reverse decades of sound 
policy with respect to the commercial use of ICBM assets. The 
vast majority--but I will note not all of CSF's 70 member 
companies--oppose the efforts to reverse this policy. There are 
some in the DOD and the defense industry that are advocating 
for releasing old ICBM rocket motors for use in the commercial 
marketplace. Those advocating for this changes seek to buy the 
rocket motors at substantial discount and then compete against 
U.S. companies that have developed their own launch 
capabilities using private capital investment.
    This proposal is counter to the longstanding U.S. law and 
policy. Wholesale conversion of ICBMs into space transportation 
vehicles risks placing the government in the position of 
competing with the private sector. It could have long-term 
consequences, and we've seen this in the past. Such behavior 
risks undermining investor confidence as well.
    By consistently reaffirming 30 years of U.S. commercial 
launch policy, improving regulatory stability, and promoting 
pro-growth policies, the United States Government has fostered 
a healthy development of the U.S. commercial launch industry, 
and we're seeing this policy bear fruit today. CSF encourages 
this committee to pose any changes to the existing policy with 
respect to the commercial use of ICBM assets, the reasons that 
I've outlined in my written testimony.
    CSF also opposes efforts to facilitate a government-
subsidized foreign launch company--in this case India--to 
compete with U.S. companies. Such policy runs counter to many 
national priorities and undermines the work and investment that 
has been made by the government and industry to ensure the 
health of the U.S. commercial space launch industrial base.
    At the same time, we have to be cautious not to squeeze out 
the U.S. satellite manufacturers and the operators that have 
immediate launch needs which cannot be served by the 
aforementioned U.S. commercial launch vehicles that will be 
coming online later this year.
    If it can be shown that there is no viable U.S. launch 
opportunities in the given time frame to a required orbit, 
launches on Indian vehicles should continue to be considered on 
a case-by-case waiver review for U.S. payloads, as has been the 
practice for the last several years. This practice should 
continue while still relevant but with the knowledge that this 
is definitely a temporary solution.
    In conclusion, on behalf of my 70 member companies, I 
appreciate the opportunity to testify in front of you today. 
American industry is responding to market demands and 
innovating on new technologies and outpacing any other country 
in the world. We seek to preserve this national leadership in 
space, and we look forward to working with this Congress to 
achieve these goals.
    I look forward to your questions.
    [The prepared statement of Mr. Stallmer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Babin. Thank you, Mr. Stallmer.
    The Chair now recognizes himself for five minutes for 
questions.
    This is directed to both of you. The United States has 
retained a number of excess intercontinental ballistic missiles 
and component parts. Current law permits these ICBMs to be 
converted for government use in space launch vehicles but only 
if certain conditions are met. Current law does not permit 
these ICBMs or their component parts to be converted to 
commercial launch vehicles.
    Recently, in SpaceNews we saw dueling op-eds written by 
George Whitesides of Virgin Galactic and Scott Lehr of Orbital 
ATK regarding how changing the current rules to allow access 
ICBM motors to be used for commercial launches would impact 
America's space industry. Lehr says that U.S. companies are 
losing small satellite launches to international competitors--
specifically, Russia--because of these restrictions. Whitesides 
argues that allowing excess government ICBMs to be used for 
commercial launches would undermine the nascent U.S. small 
satellite launch services industry, which is heavily invested 
in the development of new launch vehicles.
    What would be the advantages and disadvantages of amending 
the law to permit wider use of excess ICBMs for commercial 
space launch? Mr. Pulham or Mr. Stallmer, who wants to go 
first?
    Mr. Pulham. Thank you, Mr. Chairman. As you note, this is a 
fairly recent and highly contentious issue. And at the 
aforementioned Space Symposium last week, I had a considerable 
amount of lobbying from both sides of the issue for many of our 
member companies. And there's a disparity of opinion.
    The Space Foundation has always prided itself on being a 
consensus-based organization. We put together our pioneering 
report that Congressman Bridenstine has incorporated in his 
American Space Renaissance Act, and we took a year to do that 
so that we could address all the concerns and make sure that 
what we came forward with was something that the entire space 
community would rally behind and benefit from, and similarly, 
the white paper recently on ensuring the U.S. leadership in 
space bringing 14 organizations and taking about seven months 
to write what's essentially a three page paper.
    Our view right now is there is not consensus on this issue, 
and so we really are not going to take a stand one way or 
another. I think that the ideas need to play themselves out in 
the marketplace. I'm not a believer in the no-win scenario or 
the zero-sum game. I think that there is probably a path 
forward for consensus, but that will take some time.
    Chairman Babin. Mr. Stallmer?
    Mr. Stallmer. I will take the path of the choices--the 
advantages or disadvantages. I'll lean to the disadvantages 
first. Flooding the market with cheap government motors would 
certainly tilt the playing field from the commercial industry. 
There's many companies out there that have invested significant 
amount of private sector investment in developing a 
marketplace, developing vehicles to address this very market 
that we're talking about.
    The long-standing government policy which has been around 
for 30 years, several different Administrations--is sound 
policy. We saw the effects that it had of the government in the 
marketplace during the shuttle era when the government was 
launching commercial payloads. In 1980, the United States had 
100 percent of the commercial launch market. By, I believe, 
2010 we had zero percent of the commercial launch market.
    So it's a dangerous precedent to go down. And there's a lot 
of different reasons, not just the cost. It stunts innovation. 
We have companies out there in Texas, and California, all over 
the world, probably in every State that is represented here on 
the dais, that are developing innovative technologies. And I 
think a step back in this direction would be a tremendous one, 
it would send a message in innovation and it would send a 
tremendous message to the investment community on whether, you 
know, government policy should be adhered to or followed as we 
move forward.
    A lot has been said on the type of these vehicles and the 
cost savings to the Air Force. As we look at it, it's very 
difficult to find that cost savings that the Air Force is 
looking for.
    And, Congressman Veasey, I apologize on the delay on the 
testimony. As we mentioned, we were both out--Elliott in a much 
greater fashion--at the Space Symposium where we worked 
extensively with meetings with many of the different companies 
that are involved in this issue and also where the Air Force 
stands on this issue. And that's also a very difficult position 
to find at times.
    You can talk to some of the most senior members of the Air 
Force that have no opinion or no knowledge of this issue on 
Tuesday, and on Thursday the Air Force is coming out and 
saying, you know, maybe we should evaluate this and there could 
be a sweet spot but we don't want to upset the apple cart with 
the commercial sector.
    As far as the tax savings goes, a lot of it comes down--
what is said--it's the surveillance and monitoring and the 
maintenance of this fleet of ICBMs. There's over 900 of these 
potential muscles that the Air Force is safeguarding, 
monitoring, and surveilling. If you just perhaps say that we're 
going to give 50 of these motors to the commercial marketplace, 
you still have 850 of these motors that you have to surveil and 
monitor and watch and everything. If you rent storage space, 
and just because you take, you know, some items out of the 
storage space, you still have to pay for that storage space. 
And also, this is a sunk cost that the taxpayers have paid for 
for their intended purposes.
    So there's a lot of concern with this and how it could 
disrupt the marketplace. It can disrupt the private sector 
investment. I certainly see it and the debate back and forth 
has been tremendously cordial with the companies that are 
involved and thoughtful.
    And for my companies, we represent most all of the 
spaceports in the United States. We have over 10 spaceports 
that we represent. And I see the concern that they have because 
to stay in business, you need to be launching vehicles. And I 
am all for that and I want to see them grow. I want to see 
other U.S. launch companies grow. But I think if you shut off 
this--the capital investment by, you know, tilting the playing 
field, it will certainly impact on other launch companies and 
limit the amount of launch companies that could be launching at 
these spaceports.
    So I apologize for the long answer on that.
    Chairman Babin. Okay, sir. Thank you.
    Okay. Now, I'd like to call on the gentleman from Texas, 
Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    And I wanted to ask both members of the panel. There seems 
to be a lot of emerging activity in both the smallsat and small 
launcher arenas. A few years ago, dedicated small launchers 
were greeted with lukewarm reception and the demand never 
really materialized. What has changed this time around to make 
the small launchers more attractive?
    Mr. Stallmer. Money. I would say money. There's tremendous 
investment capital. Elliott had mentioned earlier in the late 
'90s with these pie-in-the-sky ideas, these large, huge 
commercial constellations. I think the technology was almost 
there but the funding wasn't there as much, and the capital 
markets froze up. The capital markets aren't freezing up right 
now, and there's a tremendous amount of investors. There's 
crossover investors. They're investing not only in these large 
satellite constellations but also in the launch vehicles that 
will provide--you know, provide access to these constellations.
    So I think that's probably the biggest difference right now 
from what we saw in the past, and it's the tremendous need for 
big data--data, data, I'm sorry. But there's a tremendous need 
there for internet access, as well as, you know, remote sensing 
needs, the satellite communication needs. So as our appetite 
for this grows larger, I think you're going to see the need for 
these larger constellations.
    Mr. Pulham. I would agree with Mr. Stallmer's comments. I 
think, you know, a couple other things are at play. The large 
constellations that have been proposed in the '90s were really 
about building telecom backhaul and video backhaul, and today, 
we're in a world of much more directed consumer use of the 
satellites and their data. If you look at the largest category 
of commercial satellite activity, it is direct-home 
broadcasting followed by GPS, which is direct to consumer. 
Everybody that's got one of these a little iPhones or whatever 
you're carrying, you've got a satellite ground station that 
you're carrying in your pocket.
    I think the other really interesting difference to me that 
is somewhat about the money is the degree to which there is 
great synergy now between the technical and innovation focus of 
Silicon Valley and the people who are innovating in space and 
contributing to these startups in space. If you look at, you 
know, what's going on with SpaceX, well, you know, they know a 
thing or two about Silicon Valley; they have connections there. 
And there's this whole locus of people who are equally 
interested and equally financially invested in these markets 
that begin to integrate themselves.
    And so I think you have a more directly relevant set of 
investors that is much better financially equipped than the 
last time around and with a business model that is much more 
sustainable.
    Mr. Veasey. And the next question I wanted to ask both of 
you again is on the Indian launch vehicles. What are the 
critical factors that are leading U.S. commercial satellite 
operators to seek waivers to the U.S. policy on launching 
satellites on Indian launch vehicles?
    Mr. Stallmer. The challenge right now is that the satellite 
manufacturers are making satellites at a quicker rate right now 
than we have the launch capability. So a satellite is not 
making money as--while it's sitting on the ground. Currently, 
the PSLV launch vehicle, the Indian launch vehicle, PSLV, has a 
sweet spot and it has the capability of launching some of these 
satellites right now in a timely manner.
    We don't want to see U.S. launches going overseas by any 
means, whether it's to India, Russia, or whomever else, but 
right now from the satellite, you know, producers and 
manufacturers, they need to get their assets up in the sky as 
quick as possible.
    I think this policy with the waivers and the review is a 
sound policy. I think it needs to be in place. I think we 
should be--you know, should stringently look at every launch 
that is taking place on every vehicle--or every payload that 
we're putting up on an Indian vehicle. But I think it really 
needs to be evaluated, and I think--as the Congressman said 
earlier, time will tell on this. We hope to phase this out as 
the new generation of launch vehicles come online.
    And in addition to that, a lot of these payloads that are 
being launched on these Indian vehicles are only one-off 
prototypes because as they're being launched, they're not being 
launched in a dedicated orbit. They're being launched with the 
orbit that it's putting on. So it's mainly the prototypes of 
these vehicle--these payloads.
    Mr. Veasey. Mr. Chairman, I yield back. Thank you.
    Chairman Babin. Yes, sir. Thank you, Mr. Veasey.
    I'd like to call on the gentleman from Florida, Mr. Posey.
    Mr. Posey. Thank you very much, Mr. Chairman.
    We got a lot of discussion but still a relatively small 
amount of information about the engines themselves. I'd like 
each one of you to just SWAG what you think each one of these 
engines would be worth on the market.
    Mr. Stallmer. It's hard to say, but I would say if you were 
trying to launch that payload or that class of payload, whether 
it's 1,200 pounds or--1,200 kilograms or 1,500 kilograms, what 
would it cost on a commercial variant of that vehicle? And I'm 
guessing that that variant would probably be in the $30 million 
neighborhood. I think--the motors would be about in the $30 
million vehicle.
    Mr. Posey. Okay.
    Mr. Stallmer. The motors would cost about $30 million, I 
believe.
    Mr. Posey. Each?
    Mr. Stallmer. So--each.
    Mr. Posey. Okay.
    Mr. Stallmer. But I think certainly if you go forward, a 
detailed cost analysis would have to be in place to see what 
the actual cost is, what the government cost, what they should 
be charging, things of that nature.
    Mr. Posey. Yes.
    Mr. Pulham. Votes, okay. Congressman, thank you for the 
question. I would associate myself with Eric's remarks in terms 
of the detailed cost analysis being required. We don't like to 
speculate, and if we were asked the question and had time to 
answer, I would task my research experts in talking with the 
Air Force about what they're willing to sell for, talking with 
companies about what they're willing to pay to try and come 
back with some kind of a figure. I just have no idea at this 
time.
    Mr. Posey. Well, I--you know, it is so hard on the Hill to 
get a yes or no answer out of anybody, much less a good guess 
at a value. And I really do appreciate you SWAG-ing that for 
me, and it just gets us in the ballpark.
    Would either one of you care to comment on the percentage 
of cost of the launch vehicle, the engine is? So if you have 
one of these engines, do you have 50 percent of your program 
ready to go, 33, 25? What do you think?
    Mr. Pulham. Again, Congressman, it's an interesting 
question because each of these vehicles has different 
attributes. If you look at what Virgin Galactic is doing with 
LauncherOne, their entire first stage is an aircraft, and so 
their model is fundamentally different. So I just--you know, it 
would be different for virtually every launch vehicle, I think.
    Mr. Stallmer. I think in the category of launch vehicles 
we're talking about, though, I think it is significant. It is 
the motor. I mean, you certainly need the guidance systems and 
the payload fairings and everything else, but certainly you 
build a rocket around the engine, the motors.
    But I'm not an engineer. I'm a poli-sci guy, so I would 
stick to the experts on that. But if you're asking me for a 
WAG, I would say it's a significant portion of the rocket on 
this type of----
    Mr. Posey. Well, you know, I'm figuring that they would 
probably like to have the whole rocket. You know, what would 
the payload be on one of the ICBMs that we're talking about 
accessing?
    Mr. Stallmer. The size of the payloads?
    Mr. Posey. Yes. The weight of the payload.
    Mr. Stallmer. I believe that the payload range is anywhere 
from 500 kilograms to about 1,500 kilograms. And I think that's 
a rough estimate because it falls in the medium-sized payload 
area. It's--you know, whereas a Falcon 9 is a little bit 
larger. Falcon 9 Heavy is extremely larger. What Virgin 
Galactic and Firefly looking at are smaller payload and the 
less than, you know, 500 kilogram payload, maybe about 300 
kilogram payloads.
    Mr. Posey. Yes. So the question is if I could just buy one 
of the ICBMs, you know, take out the current payload, now I own 
it, what would the market demand be for the 500 to 1,500 range 
payload?
    Mr. Stallmer. Well, that's the challenge. It could--the 
market demand is high for that depending on how you use that 
payload or that rocket. So, for instance, just recently--I 
don't have the exact date--but a few months ago, SpaceX 
launched the ORBCOMM constellation of satellites, and they 
basically bundled, I believe, 11 satellites and then they 
dispensed the satellites out.
    So if you aggregate the payloads, it ranges. If you're just 
looking for--you know, to use this launch vehicle for one 
payload, a 1,000 kilogram payload, then there you go. There may 
be a market for that. I'm not sure of what that mid-class 
market is, but I know mostly what we're talking about now--and 
when you're talking about a much larger market, you're talking 
about the geostationary market, which is a lot--or it's a very 
stable--we know almost exactly what that will be and who will 
be launching it.
    With these smaller satellites that are going up, these 
smaller constellations--and I have a graph I could share with 
you and the breakdown of the weight and the----
    Mr. Posey. That's one of the talking points. I like that.
    Mr. Stallmer. Yes.
    Mr. Posey. And I was thinking like OneWeb.
    Mr. Stallmer. So what OneWeb is looking to do right now--
and they have already aligned--of their 700 launches, they are 
going to go with an Ariane space launch vehicle, as well as 
augment some of these smaller aggregation with Virgin Galactic. 
So the Virgin Galactic will maybe launch, you know, several--a 
handful of satellites at a time where the Ariane variant can 
launch a much larger amount because it's a larger payload. And 
I think Elliott has a chart on that.
    Mr. Pulham. Yes, Congressman. In my testimony there's a 
chart from our research folks that shows from 2006 to 2015 the 
breakdown of various masses that were launched. And in the area 
that we're talking about, the medium 501 to 1,500 kilograms in 
2014, just eyeballing it, it looks like it was probably about 
13 or 14 percent of what was launched, and in 2015, probably 
only about nine or 10 percent.
    Mr. Posey. Okay. Thank you very much.
    Chairman Babin. Thank you.
    I'd like to recognize the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Well, thank you very much, Mr. Chairman. 
Actually, is it okay----
    Chairman Babin. No----
    Mr. Rohrabacher. All right.
    Chairman Babin. --he's passing his time----
    Mr. Rohrabacher. All right. Oh, my gosh.
    Chairman Babin. --so you're going next.
    Mr. Rohrabacher. Well, he usually refutes me after I--no, 
thank you very much, Mr. Chairman. This--you know, we have 
perplexing issues here in Washington, D.C., and this is one of 
the perplexing issues because we know that one of our great 
assets is this new and thriving and futuristic space 
transportation systems that we have now being developed in the 
private sector.
    And at the same time have made a lot of investments when 
they were needed during the Cold War, et cetera, in rocket 
missile technologies that are--there waiting and then what to 
do with them in a way that would not undermine these people 
who--not changing the rules in the middle of the game for this 
people who now have invested in this new industry.
    So let me suggest that it is not an unsolvable formula that 
we're looking for. We know, and it's a pretty well--it is 
pretty well understood that the government does have a right to 
do launches on these ICBMs for government purposes, for a 
government mission, is that correct? I mean, we're not saying--
the private sector isn't saying no, they've got to go with the 
private companies even though the government has the capability 
of doing it itself, is that correct? That's pretty well----
    Mr. Pulham. That's correct.
    Mr. Rohrabacher. Okay. Well, then the problem then--let me 
just suggest that the government--maybe we're under--or not 
looking close enough to see that there are things that the 
government needs to do in space that will help alleviate this 
problem. For example, if you have a certain number of space 
vehicles that are there like ICBMs and waiting, well, we didn't 
build them because we wanted them to drop nuclear weapons on 
the Soviet Union. That's not why we built those. We built those 
just in case there was a war, but we didn't want that to 
happen.
    Well, there are lots of things we need to do in space that 
would also mean that we have to have this capability. How about 
cleaning space debris? How about making sure that we have a new 
commitment to making sure--and that would be a federal 
commitment, and that these rockets will be used for things like 
that? Or how about global protection against meteorites or 
asteroids that might come and destroy the planet if we don't 
have the capability of dealing with that? Those are--you know, 
we have things we can do--that the Federal Government has to do 
and has to be part of.
    If we don't clean up the space debris, we're not going to 
be able to do this business in space. It will undermine the 
private sector anyway. So we need to do that, and it needs to 
be done by the Federal Government. It needs to be a federal 
program. And so maybe we can dedicate these ICBMs to missions 
like that and--rather than trying to undermine our people in 
the private sector who have invested huge amounts of money in 
order to build this capability without thinking their federal--
the Federal Government was going to change rules of the game 
and undermine their efforts to operate in the market.
    So, anyway, that's just a thought. The bottom line is we 
need innovative technologies, but I think what we need, Mr. 
Chairman, is not just innovative technologies, but we need 
innovative policies and perhaps expanding the role and getting 
the job done that we need to get done in space, and focusing on 
that may help us overcome this perplexing issue that we're 
discussing today.
    And you've got about a half-a-minute to say yes or no.
    Mr. Pulham. Space debris is a huge issue, and I never 
thought I would see a time when the commercial industry would 
be anxious to try and find ways to regulate itself because of 
the environment up there. We are starting to talk about space 
traffic management, which has been an off-subject thing in 
recent years. You know, absolutely space debris is a huge 
issue, and anything we can do to tackle it is something we need 
to do.
    Mr. Rohrabacher. Even with the old ICBMs might play a role?
    Mr. Pulham. If they can play a role, let them play a role.
    Mr. Stallmer. I would say no on the ICBMs because China had 
a satellite that they justified that there was a dead satellite 
and they wanted to take it out of that orbit, and they used an 
ICBM as an ASAT weapon. And as we were tracking--the U.S. 
tracks over 20,000 pieces of debris because of this China ASAT 
that took place by shooting a piece of debris. It caused about 
5,000 pieces of debris.
    So that would not be the best way, I would say, to use 
this, but I think the focus the Air Force's technology on space 
traffic management and if there's a way to use these vehicles 
in that regard, I'd be for it.
    Mr. Rohrabacher. Yes. I think the suggestion wasn't that 
the ICBM----
    Mr. Stallmer. Right. Right.
    Mr. Rohrabacher. That's your debris.
    Mr. Stallmer. Right. Right.
    Mr. Rohrabacher. Yes, you weren't proposing to blow these 
things out of the----
    Mr. Stallmer. Not one for one. Not one for one.
    Mr. Rohrabacher. Yes, but we might have some big machine 
that we put up there----
    Mr. Stallmer. That's right.
    Mr. Rohrabacher. --that could actually----
    Mr. Stallmer. If we could do that, I would be all for that, 
sir.
    Mr. Rohrabacher. Okay. Thanks very much, Mr. Chair.
    Chairman Babin. You're welcome. Thank you, good line of 
questioning.
    Let's see. Now, the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chair.
    And Mr. Rohrabacher and I often disagree, but a lot of 
times we agree, and he and I are on the same page when it comes 
to creating some kind of formula that both encourages private 
development of launch systems to carry, you know, smaller 
satellites to really maximize the private endeavors here but 
also maximize the investments that taxpayers have made, whether 
they're from Colorado or California or any place else in the 
Nation with all of these ICBMs.
    So I think there will be a formula that will do both of 
those things. And, you know--and I agree we want to use the 
ICBM not to blow something up, up there but to maybe be the 
vehicle that----
    Mr. Pulham. Certainly.
    Mr. Perlmutter. --you know, has the snowplow cleaning up 
the junk up there.
    So, you know, one of the things I want to see encouraged, 
and I think we're seeing this development, is with the small 
satellites, the CubeSats, the microsats, whatever you call 
them, to be able to have some kind of a launch system that 
really is dedicated to them. And so that, you know, whether 
it's some private--small private enterprise that's building the 
satellite or whether it's, you know, a university developing 
the technology to go on a small satellite, I mean, I came in 
late and my guess is you gentlemen already answered this, but 
are those launch systems being developed? Is there something 
else we as a Congress can do to spur their development? And 
I'll turn it over to whoever wants to go first.
    Mr. Pulham. Thank you, Congressman, and I appreciate you 
being here and would invite you to see some satellite payloads 
being deployed from Fort Carson the summer. We are involved 
with the United Launch Alliance on a program called Future 
Heavy where we're going to be launching the world's largest 
amateur rocket from Fort Carson and deploying about a dozen 
student experiments that are all in the CubeSat sort of range. 
So I hope you can join us for that.
    I think that, as my colleague has suggested, that 
development is going very, very well, and so what we need to 
focus our efforts on is how to be--to not perturb, I guess, the 
environment by acting without really, really thinking things 
through. I think that the--a lot of the launch companies have 
great, innovative ideas. The architectures that they're 
introducing are very interesting, and they're working with lots 
of different spaceports, which is going to give people a 
tremendous variety of options.
    So I think we're headed on a really good path. We've got a 
lot of private investment pouring in, and so I would say just 
let's not throw the baby out with the bathwater.
    Mr. Stallmer. I would concur with Elliott on that. The 
process right now is working. We have at least four or five 
small satellite launch vehicles in development right now that 
should be coming online within the next year or so. I think any 
change in this policy again could be very disruptive to that 
process. A lot of this--you know, what you don't want is these 
companies coming to you for, you know, a handout or, you know, 
additional funding. They're doing it by themselves by private 
sector investment right now. And if we stunt that private 
sector investment growth, we're going to have a large--you 
know, a much greater problem.
    So I think we're doing the right thing in that regard. And 
even if the policy had--would change, you change it tomorrow, 
it would take at least a year to 24 months to transition these 
motors into vehicles, I believe, maybe a year, but maybe more. 
So I think that's a challenge that we have.
    But I'm all for--you know, as a taxpayer, as someone who's 
served in the military for 25 years, I see the investment that 
these had and I think if there's a way that we can think 
creatively on how to use these missiles for not their intended 
purposes, I think it's ideal. And I'd like to come to--come 
forward with a solution--try to find a solution to that.
    Mr. Perlmutter. Okay. So, I mean, I'm happy if you're 
telling me just let it develop on its own, that there really 
isn't any major need for us to do something, that's fine with 
me. I do want to see us not pass up the opportunity to put the 
ICBMs to work in some positive fashion. I guess I'm not afraid 
of India as being, you know, a launch country for some of our 
small satellites. So I'm happy just to be hands-off. But I also 
have a responsibility as a Member of Congress to make sure that 
the assets of the United States are used properly and not just 
thrown away.
    Mr. Stallmer. I certainly see your concern there from the 
taxpayer perspective, and it's greatly appreciated. But 
sometimes the hands-off approach also is appreciated in 
industry. If you see--and sometimes, you need a little hand 
from the government and a pat on the back, but I think if you 
see the progress that the commercial sector has made just in 
the last week alone or last two weeks what Blue Origin has done 
out in West Texas on improving their reusability, what SpaceX 
did with the commercial cargo launch, they launched not only a 
cargo to the International Space Station, they put in their 
trunk an inflatable module made by a commercial company Bigelow 
Aerospace that attached to the International Space Station that 
was built--the delivery system was built by Sierra Nevada from 
Colorado, and all the different commercial players that were 
involved in that and launched from Space Florida. So there's a 
lot of tremendous growth going on in the commercial 
marketplace.
    Mr. Perlmutter. I have one last question if I could, Mr. 
Chair. So when I walked in, I wasn't quite sure if I heard this 
correctly, but did you say that these companies should get 
their assets up into space as soon as possible? Is that what 
you said, assets, I hope?
    Mr. Stallmer. I think, yes, the companies--and I think 
collectively as a nation we should get our other assets----
    Mr. Perlmutter. Get our assets up into space? All right. 
Thank you. I yield back.
    Chairman Babin. Yes, sir. Thank you. And I'd like to call--
--
    Mr. Stallmer. My mother might be watching, so I'll be 
careful.
    Chairman Babin. I'd like to call on the gentlewoman from 
Virginia, Mrs. Comstock.
    Mrs. Comstock. Thank you, Mr. Chairman.
    It's hard to have a discussion about commercial space and 
not mention Virginia's Mid-Atlantic Regional Spaceport at NASA 
Wallops, which is one of only four launch sites in the entire 
United States that is capable of launching to orbit. It has 
served as a vital asset in support of our nation's space 
industry. So there has been discussion on the commercial use of 
decommissioned ICBM motors, and I wanted to ask how potential 
use of these motors could benefit our nation's spaceports, 
including MARS?
    Mr. Stallmer. Well, we represent MARS and the great people 
at the Mid-Atlantic Regional Spaceport. Dale Nash is doing a 
fantastic job down there, and I think it's a vital asset to the 
U.S. spaceports, and we are tremendously supportive of what he 
does. And I also should say, Congresswoman, tremendously 
supportive of what you do for McLean Little League and your 
support.
    Mrs. Comstock. Thank you.
    Mr. Stallmer. You know, I have three children that are 
quite heavily----
    Mrs. Comstock. That was a great----
    Mr. Stallmer. --involved.
    Mrs. Comstock. We just had our kickoff on Little League, 
and Jayson Werth threw out the first pitch, so that was fun, 
too, right?
    Mr. Stallmer. I heard he was only going to be there because 
he knew you were going to be there so----
    Mrs. Comstock. Oh, yes.
    Mr. Stallmer. But, no, the spaceports are vital to the 
economic growth of our industry. It's a total ecosystem of what 
we're dealing with. Without these state-of-the-art reliable 
spaceports, we're not going to have the vehicles that we can 
put up into space and all the tremendous benefits that we're 
going to get to space. So to say we support Mars, it would be 
an understatement because I think, as I say, a vital asset.
    I guess our thinking would be--and they have a great 
partnership with Orbital ATK, another fantastic company, whose 
right in the middle of this issue, and we want to see Orbital 
be launching as many vehicles as they can from MARS and from 
the other spaceports.
    We see the value, though, without these ICBMs, that there's 
potential of launching even more vehicles from those spaceports 
and that spaceport in particular. However, I think if the 
government intercedes and cuts into the competitiveness of the 
commercial marketplace, as we've seen in the past, it can have 
a really damaging impact on the industry as a whole. So instead 
of launching one or two vehicles from the spaceport per year, 
you can go either way. It could be we launch several or 
launching a few, and I think that's what we really need to 
examine. But tremendously supportive of the Virginia spaceport.
    Mrs. Comstock. All right. Thank you.
    And thank you, Mr. Chairman.
    Chairman Babin. You're welcome. Thank you.
    I think at this time we'd like to go back through for a 
second round of questions if that's amenable with everyone.
    I recognize myself for the first one.
    Under the 1998 Commercial Space Act the Federal Government 
can use excess ICBMs for its own use as long as certain 
conditions are met. We've heard that numerous times today. This 
provision was utilized by NASA for the LADEE mission. We've 
recently heard that the procurement for this mission was 
particularly onerous and resulted in a protracted protest to 
the GAO. As a result, we've heard NASA is hesitant to use 
excess ICBM motors on future missions despite being able to do 
so. What can the Congress do to make it easier for agencies to 
utilize existing authorities to use these access ICBMs for 
governmental purposes? Both of you.
    Mr. Pulham. Mr. Chairman, I think you cut right into the 
Armed Services Committee here. The issue, I think, is the 
difficulty of the contracting environment as regards federal 
defense and space procurements these days. There's very rarely 
anymore a procurement that doesn't end up in court or appealed 
or challenged or protested or whatever can be done. And so, you 
know, I think that the issue is not one that's particular to 
launch vehicles of any kind. I think it's systemic within 
federal contracting and needs to be the subject of contracting 
reform discussions.
    Chairman Babin. Mr. Stallmer?
    Mr. Stallmer. And I think a lot of this discussion, you 
know, when we go through the research and the waiver process to 
launch in these vehicles, a lot of this policy is the 
discussion on the potential of what if a launch failure 
happened at one of these ICBMs? I think that is a discussion 
and what this could mean to the nuclear triad. I think that was 
where a lot of the area of pause came from and the implication 
and the integrity of our ICBM arsenal.
    So I think there's a lot of broader policy implications 
involved with this. Certainly, the discussion with Congress on 
how we can streamline these processes would be helpful in that 
regard because, again, the national policy does state that 
these assets can be used for defense and other government 
missions and just--they--you know, they need to go through that 
process. So I think it needs to be a thoughtful discussion 
involved on that.
    Chairman Babin. Okay. Thank you.
    And then, again, General Hyten, Commander of Air Force 
Space Command, stated in the ``Financial Times'' yesterday that 
a growing number of commercial launch ventures made him worry 
whether there was enough business to sustain them all, noting a 
similar bubble in the late 1990s that burst when commercial 
satellite constellations went bankrupt. Is the recent 
prosperity of the small satellite market a result of 
technological advances such as Moore's law and spin-in from the 
technology sector, or is it a reflection of a short-term bubble 
in launch services brought about by government subsidies?
    Mr. Pulham. Thank you, Mr. Chairman.
    I certainly don't think it's because of government 
subsidies. I think that you're seeing different success in 
different sectors of the space industry, and that drives itself 
into the various types of satellites that are being launched.
    In the case of the very small satellites, it's really been 
the development of microelectronics and the compression of 
processors and, you know, the availability of nanotechnology 
that is allowing these small satellites to be produced almost 
as a commodity. They're coming off an assembly line and 
students are putting them together, and it's not the kind of 
intense clean-room operation that major satellites are 
contending with.
    At the same time, the companies that have orbital slots 
where they're able to put very high-value satellites in 
geostationary orbit, they're not shrinking those satellites. 
They're putting more and more capability into them and more and 
more capability to stay in orbit longer. And because the longer 
a commercial satellite is functioning, the more revenue they're 
able to see from it.
    And so you're seeing investment from the commercial 
operators in things like research that will help them with 
satellite servicing. And I think it was Intelsat that just 
inked an agreement with somebody to do a----
    Mr. Stallmer. With Orbital ATK.
    Mr. Pulham. With Orbital ATK to do a demonstration of 
satellite servicing.
    So you have different types of investment being made in 
different sectors of the industry. You do have--you know, the 
launch business is interesting. It really only comprises about 
2 to 2-1/2 percent of the total space marketplace globally, but 
that 2-1/2 percent works out to, you know, about $3 billion or 
so, so that's not--$6 billion, so that's not chump change if 
you want to be in that business.
    So there is a market for each of these things, and I think, 
you know, we need to trust the companies that have business 
plans and business models to go after each of the segments and 
to do so knowing that some are going to succeed and some are 
going to fail. But I think we're at a point in the maturity of 
technology and the maturity of the industry and the depth of 
financial strength behind these that we're going to see more 
successes than failures as we go forward.
    Mr. Stallmer. I would say in all due respect to General 
Hyten that I would gauge the forecast of the commercial 
marketplace more from the commercial marketplace rather than 
from the Air Force, as well as through a lot of the 
organizations that are doing these forecasts in tremendous 
detail, you know, for instance, the Tauri Group on their annual 
forecast of what venture startup looks like and on what the 
Space Angels Network is seeing, as well as the FAA's forecasts, 
annual forecasts of what they see for these markets.
    The way Silicon Valley has invested in these companies I 
think--as I said, there's a lot of crossover investors that 
have also invested not only in the satellite systems, but also 
in the vehicles that are producing these.
    So I certainly applaud General Hyten's passion on this 
issue, but I think unless they have reports that I haven't 
seen, these forecast reports on the commercial marketplace, I 
would kind of look forward to more of what the commercial 
forecasts are looking at.
    Chairman Babin. Okay. Thank you.
    Yes, sir?
    Mr. Pulham. And if I can add, we talked a lot about Silicon 
Valley investments and angel investors here. I think one of the 
hallmarks of where we are today is that the investment is not 
just coming from high-risk-tolerant people, that a lot of the 
times when you see an investment made in a space company, 
you'll see a Silicon Valley company sort of as a lead or a 
face, but it'll be somebody very institutional like Fidelity 
Investments or one of the big banks back in New York that is 
putting a huge equity put into that because they see profits 
and they see progress being made in other parts of the sector. 
They see what is being accomplished, and their confidence to 
invest as institutional investors is quite strong.
    So that again takes it out of the realm of where we were 
back when we had things like Teledesic when you were, you know, 
just depending on somebody's personal, individual wealth, but 
you're able to appeal to large financial institutions.
    Chairman Babin. Thank you. Thank you very much.
    Now, I'd like to recognize the gentleman from Colorado one 
more time, Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chair.
    And, you know, obviously, this is a frontier, but with all 
frontiers, there's lots of opportunity and there is risk. And 
to the degree there are failures, you know, I spent my life 
before I was elected to Congress as a Chapter 11 lawyer, you 
know, so that's just the nature of private enterprise. And the 
fact is that more companies, more individuals are willing to 
see this frontier for the opportunities that it presents. And 
if we have some mistakes or some things don't go, then that's 
the way it is.
    Now, I have a couple questions. Mr. Pulham, deploying small 
satellites from the space station using a commercial dispenser 
is perhaps the most accessible onramp for new entrants to 
space. What is the importance of this asset for educational 
institutions and space research?
    Mr. Pulham. Thank you, Congressman. It's very important, 
and we're pleased to work with the folks at CASIS in Florida on 
a number of programs appealing to students. But it is one of 
the largest users of these small satellites is for universities 
and student research because they don't have access to the big 
national labs and platforms. And so the ability to go someplace 
like CASIS, manifest your payload, and have it ejected from a 
dispenser, which I'm--it sounds like we're all eating PEZ here, 
but it works and it's a very good approach.
    And what we're seeing is that other companies that have 
other solutions are also beginning to think about sort of the 
philanthropic part of this, yes, we're going to put up a 
vehicle and we've got room for five small satellites. Why don't 
we dedicate one of those to a university project?
    So the International Space Station continues to be a 
profound investment that pays off for this country every single 
day, and the ability to deploy small satellites is just one of 
many, many things the ISS has given us.
    Mr. Perlmutter. Okay. Anything to add?
    Mr. Stallmer. I absolutely, completely concur. I mean, the 
value of the ISS is innumerable to speak of, and it is 
absolutely a great onramp for a lot of the type of payloads 
that are being launched from it.
    As we move forward, I know a lot of these satellite 
payloads want to be--get in their dedicated orbit that would be 
optimal for their use, and--whereas ISS you go out where they 
ship you out. So--but it is just an outstanding resource and 
the work, you know, that CASIS is doing is fantastic and, you 
know, the companies like NanoRacks that help support this, it's 
great.
    Mr. Perlmutter. Similar to a question and discussion we had 
with my last round of questions, so this year, we found 
ourselves talking at length about how to transition from the 
Obama Administration to the next President. These conversations 
will likely carry over after this year. What advice do you 
gentlemen have to our committee and the incoming 
Administration, whoever it is, to support the growing 
commercial space industry?
    Mr. Pulham. So, Congressman, thank you. In my introductory 
remarks I asked to have included a white paper that our two 
organizations and 12 others worked on called ``Ensuring U.S. 
Leadership in Space.'' And that paper was written particularly 
to present an industry consensus on exactly this issue for 
people that are running for office, both those that have and 
those that have not space experience. I think this committee is 
very rich in that you have a lot of people here who have this 
experience and can share that with other members.
    The--you know, the enemy that seems to gnaw at space 
programs in the United States is the enemy of transition from 
one Administration to another. And I know this plays out in a 
lot of different parts of the space community, but certainly 
where we see it the most visible is in NASA where it seems like 
every new Administration wants to put their thumbprint on the 
program, and we stop and throw away billions of dollars worth 
of effort and start all over again.
    Starts and stops and redos are killing us, and we have to 
get to a position of consistency. And many of these 
recommendations that we've made in the past are now in 
Congressman Bridenstine's bill that he announced last week.
    And so things that give NASA and others in the space 
business the opportunity to do multiyear procurements, no-year 
procurements, stability and leadership, it's a highly technical 
enterprise, and it shouldn't be subject to political--high 
political turnover, and just the long-term vision of what are 
we intending with our space industry? We have good space 
policies----
    Mr. Perlmutter. I'm going to stop you for one second----
    Mr. Pulham. Please.
    Mr. Perlmutter. --just to put in a plug for something I'm 
pushing, which is the orbital mechanical engineers say 2033 is 
the best time to get our astronauts on Mars because that's when 
we're closest, it saves a lot of travel time, and so my goal is 
to make sure we have something from a Congressional standpoint 
suggesting to the Administrations as they come and go, let's 
get our astronauts to Mars at least by 2033 if not before then.
    And so you're absolutely right, a lot of starts, a lot of 
stops. We need continuity of mission. We need not to start 
engaging in things if the private sector is actually working 
its way through all of this. So 2033, just remember that date, 
and then, Mr. Stallmer, if you had something you wanted to add, 
go for it.
    Mr. Stallmer. I think Elliott did a great job covering it.
    I would say for the private sector and, you know, the civil 
and military space, their goals should be to do--in regards to 
civil and military space--do what the commercial sector cannot 
do. The commercial--and I'm going to tell you all the great 
things that are going on in the commercial marketplace. But 
there is still fundamental science and technology that only the 
government has that competency and capability of doing.
    So, you know, I know firsthand your staff and all the staff 
here has always been engaged with our member--myself and our 
member companies on knowing what our capabilities are and what 
our aspirations are and what our limitations are. And I think 
we'll always be honest with you. And I think as we move 
forward, you know, from whatever new Administration it is going 
to be, is that NASA has core competencies that they're very 
good at, as does the DOD. And you've got to keep in mind that 
the commercial marketplace would be there to help throughout 
the way.
    Mr. Perlmutter. Thank you. Thanks, Mr. Chair.
    Chairman Babin. Yes, sir. Thank you.
    And now, I'd like to recognize the gentleman from Florida, 
Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman.
    I'm still trying to quantify the potential values and 
potential uses of our potentially expendable ICBMs. Is there 
anyone in the industry who uses the same motor now?
    Mr. Stallmer. I do not believe so. I believe that Orbital 
ATK is the subject matter expert on solid rocket motors. I 
could be corrected on that. But by and large, the majority of 
folks in the launch industry use liquid motors, so Orbital is 
the one--Orbital ATK are that. And again, I'll check for 
clarification, but I believe--if they aren't, there's not that 
many others.
    Mr. Posey. Okay.
    Mr. Stallmer. I believe they are the only one.
    Mr. Posey. And I was interested really in domestic because 
I don't want them to go overseas----
    Mr. Stallmer. Right. Right. Yes, of course.
    Mr. Posey. --by any stretch of the imagination.
    A little while ago, you talked about the United States 
having 100 percent of the commercial launch market back in the 
'80s, and then I missed the last part of that sentence. We 
managed to parlay it into what?
    Mr. Stallmer. So the United States changed their policy. 
The United States and--you know, the commercial launches, and 
then we changed the policy to go onto the shuttle. And then 
after the shuttle happened, during that time frame, lot of--
Ariane space emerged to take up a lot of those commercial 
launches because of the limitations that the U.S. launch 
companies had. So the U.S. Government was still launching--or 
we still were launching government payloads, but as far as 
commercial geostationary satellites, were at zero.
    And that has recently changed, I think, with the emergence 
of SpaceX. I think in 2010 we started beginning to capture a 
larger amount of the market share, and right now, I believe--
correct me if I'm wrong, but I believe that we have 60 percent 
of the geostationary commercial marketplace.
    Mr. Posey. Okay. Yes. My recollection is a little bit 
differently. I think we lost the commercial market because we 
overregulated it while other companies subsidized and actually 
helped their industries. We choked the golden goose. And I 
think we managed to do that. I don't think there was ever a 
necessity for an Ariane if they had left our commercial launch 
vehicles alone and let them do their job without trying to fund 
federal agencies with what should have been value-added--or 
actually were non-value-added cost to our commercial launch 
market.
    Thank you, Mr. Chairman. I yield back.
    Chairman Babin. Okay. Well, I think this pretty much wraps 
up the questioning for today. And I'd like to thank the 
witnesses very much for being here. And I know there were some 
other folks that wanted to come back, but I think they had 
other meetings.
    So I guess the record will remain open for the two weeks 
for additional written comments and written questions from 
members who did not get to get back and ask their questions.
    So thank you again, witnesses. We appreciate it. This 
hearing is now adjourned.
    [Whereupon, at 11:22 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Mr. Elliot Pulham

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Mr. Eric Stallmer


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                              Appendix II

                              ----------                              


                   Additional Material for the Record



               Statement submitted by the Full Committee
                  Ranking Member Eddie Bernice Johnson
                  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                  
                  


                                 <all>
</pre></body></html>
